STATE OF NEW YORK,

SS:

COUNTY OF NEW YORK

86049

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 12th day of February 2021 deponent served 3 copies of the within

BRIEF OF AMICI CURIAE INTERNATIONAL LAWYERS ASSISTING
WORKERS NETWORK (ILAW), INTERNATIONAL COMMISSION FOR LABOR
RIGHTS (ICLR), GLOBAL LABOR JUSTICE-INTERNATIONAL LABOR RIGHTS
FORUM (GLJ-ILRF) AND CORNELL LABOR LAW CLINIC IN SUPPORT OF
RESPONDENTS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Joshua Patashnik
California Department of Justice
455 Golden Gate Avenue, Suite 11 000
San Francisco, California 94102
(415) 510-3896

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Attorneys for Respondents
Joshua P. Thompson
Wencong Fa
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
[ 91 6) 41 9-7111

Attorneys for Petitioners
I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct, executed on February 12, 2021, pursuant to Supreme Court Rule 29.5(c).
All parties required to be served, have been s ~

tJ...r1;1,

J)

Howard Daniels

Sworn to me this
February 1 2, 2021
Alessandra Kane
Notary Public, State of New York
No.01KA6340521
Qualified in Richmond County
Commission Expires April 1 8, 2024

Case Name: Cedar Point Nursery and Fowler

Packing Company, Inc., v. Victoria Hasid, in her
official capacity as Chair of the Agricultural Labor
Relations Board, et al.,

Docket/Case No. 20-107
Notary Public

